     Department of Homeland Security

     ��������������������������


 Alabama's Management of State Homeland Security 

    Program Grants Awarded During Fiscal Years 

               2010 Through 2012





OIG-14-87                                 May 2014

                       OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov
 
                                      MAY 2 2014 
 
MEMORANDUM FOR:              Brian E. Kamoie 
                             Assistant Administrator 
                             Grant Programs Directorate 
                             Federal Emergency Management Agency  
 
FROM:	                       Anne L. Richards 
                             Assistant Inspector General for Audits 
 
SUBJECT:	                     Alabama’s Management of State Homeland Security 
                              Program Grants Awarded During Fiscal Years 2010 
                              Through 2012 
                                
Attached for your action is our final report, Alabama’s Management of State Homeland 
Security Program Grants Awarded During Fiscal Years 2010 Through 2012. We 
incorporated the formal comments from the Grant Programs Directorate in the final 
report.  
 
The report contains six recommendations aimed at enhancing the program’s overall 
effectiveness. Your office concurred with all six recommendations and is taking action to 
implement them. Based on information provided in your response to the draft report, 
we consider recommendations #1 through #3 and #5 through #6 unresolved and open. 
Recommendation #4 is resolved and closed. As prescribed by the Department of 
Homeland Security Directive 077‐01, Follow‐up and Resolution for Office of Inspector 
General Report Recommendations, within 90 days of the date of this memorandum, 
please provide our office with a written response that includes your (1) agreement or 
disagreement, (2) corrective action plan, and (3) target completion date for each 
recommendation. Also, please include responsible parties and any other supporting 
documentation necessary to inform us about the current status of the recommendation. 
 
Please email a signed PDF copy of all responses and closeout requests to 
OIGAuditsFollowup@oig.dhs.gov. 
 
Consistent with our responsibility under the Inspector General Act, we will provide 
copies of our report to appropriate congressional committees with oversight and 
appropriation responsibility over the Department of Homeland Security. We will post 
the report on our website for public dissemination. 
 
Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant 
Inspector General for Audits, at (202) 254‐4100.  
 
Attachment
                                 OFFICE OF INSPECTOR GENERAL 

                                             Department of Homeland Security 



   Table of Contents
   Executive Summary ............................................................................................................ 1

   Background ........................................................................................................................ 2

   Results of Audit ................................................................................................................... 3

              Alabama’s Grant Management Practices ............................................................... 3 

              Obligation of Grant Funds ....................................................................................... 3 

              45-day Pass-through Requirement ......................................................................... 4 

              State Homeland Security Strategy ......................................................................... 5 

              Inventory Requirements ......................................................................................... 6 

              Procurement Practices............................................................................................ 7 

              Recommendations .................................................................................................. 7 

              Management Comments and OIG Analysis ............................................................ 8 


   Appendixes
    

              Appendix A: Objectives, Scope, and Methodology .................................................... 12 

              Appendix B: Management Comments to the Draft Report ....................................... 13 

              Appendix C: ALDHS Comments to the Draft Report .................................................. 17 

              Appendix D: Description of the Homeland Security Grant Program ......................... 19 

              Appendix E: Threat and Hazard Identification and Risk Assessment ......................... 20 

              Appendix F: Major Contributors to This Report ......................................................... 21 

              Appendix G: Report Distribution ................................................................................ 22 


   Abbreviations
              ALDHS                 Alabama Department of Homeland Security
              CFR                   Code of Federal Regulations
              DHS                   Department of Homeland Security
              FEMA                  Federal Emergency Management Agency
              FY                    fiscal year
              HSGP                  Homeland Security Grant Program
              MOU                   memorandum of understanding
              OIG                   Office of Inspector General
              SHSP                  State Homeland Security Program
              SPR                   state preparedness report
              THIRA                 Threat and Hazard Identification and Risk Assessment



www.oig.dhs.gov                                                                                                                  OIG-14-87 

                                                                      

                       OFFICE OF INSPECTOR GENERAL 

                               Department of Homeland Security 



   Executive Summary
   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, as amended, requires the Department of Homeland Security (DHS) Office of
   Inspector General (OIG) to audit individual states’ management of State Homeland
   Security Program and Urban Areas Security Initiative grants. This report responds to the
   reporting requirement for Alabama. The audit objectives were to determine whether
   Alabama used State Homeland Security Program and Urban Areas Security Initiative
   Grant funds in accordance with the law, program guidance, and state homeland security
   strategies and other applicable plans. We also addressed the extent to which funds
   enhanced the State’s ability to prevent, prepare for, protect against, and respond to
   natural disasters, acts of terrorism, and other manmade disasters.

   In most cases, the Alabama Department of Homeland Security used State Homeland
   Security Program funds according to the law and program guidance. However, Alabama
   did not obligate 80 percent of these funds to local units of government as required. The
   majority of State Homeland Security Program funds were allocated to support statewide
   initiatives, such as information sharing and interoperable communications. After the
   Federal Emergency Management Agency (FEMA) reduced the amount of awards in fiscal
   years 2011 and 2012, Alabama decided that funding statewide initiatives to assist all
   local jurisdictions was more beneficial than allocating smaller amounts to individual
   jurisdictions. The Alabama Department of Homeland Security’s investment in statewide
   projects may have been more beneficial and a good use of limited grant funds. Alabama,
   however, did not obtain the required consent of local units of government before
   funding the statewide initiatives. It also did not have a current state homeland security
   strategy and a method to measure preparedness, nor did it always follow an established
   internal control to approve expenditures. In most cases, subgrantees complied with
   procurement requirements, but they did not always comply with inventory and property
   record requirements.

   We made six recommendations for FEMA to improve grant program management,
   performance, and oversight. FEMA concurred with all six recommendations and is taking
   action to implement them. Written comments to the draft report were incorporated
   where necessary.




www.oig.dhs.gov                               1                                        OIG-14-87

                           OFFICE OF INSPECTOR GENERAL 

                                     Department of Homeland Security 



   Background
   DHS provides funding through the Homeland Security Grant Program (HSGP) to assist
   state and local agencies in enhancing their capabilities to prevent, protect, mitigate,
   respond to, and recover from terrorist attacks, major disasters, and other emergencies.
   Within DHS, FEMA is responsible for the administration of the HSGP. FEMA supports
   preparedness by developing policies, ensuring there are adequate plans, defining
   capabilities to address threats, providing resources and technical assistance to states,
   and synchronizing the Nation’s preparedness efforts. Appendix D contains a description
   of the grant programs under the HSGP.

   FEMA’s HSGP guidance requires the governor of each state and
   territory to designate a state administrative agency to apply
   for and administer grant funding awarded under the HSGP.
   The Governor of Alabama designated the Alabama
   Department of Homeland Security (ALDHS) as the agency
   to provide administrative oversight of the HSGP. Oversight
   includes responsibility over grant funding for state and
   local disbursement. FEMA awarded Alabama about $20.5
   million in HSGP funds, including $17.8 million for the State
   Homeland Security Program (SHSP), for fiscal years (FY) 2010
   through 2012. See table 1 for annual awards from FEMA. Alabama did not receive Urban
   Areas Security Initiative grant awards in FYs 2010 through 2012.

                  Table 1: FEMA Grant Awards to Alabama FYs 2010-2012

                   $12,000,000
                   $10,000,000
                    $8,000,000
                    $6,000,000
                    $4,000,000
                    $2,000,000
                            $0
                                    FY 2010         FY 2011   FY 2012

                   Source:fOIG analysis of FEMA awardsf

   Alabama is divided into 7 regions with 67 jurisdictions (counties) and one federally
   recognized Native American tribal government. In FY 2010, ALDHS allocated HSGP funds
   to its jurisdictions, regions, the state administrative agency, and other state agencies. In
   FYs 2011 and 2012, ALDHS allocated funds to state priorities such as interoperable


www.oig.dhs.gov                                       2                                   OIG-14-87

                        OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security 



   communications and information sharing; funds were also allocated to law enforcement
   regional teams and training and mutual aid teams.

   Appendix A describes the audit objectives, scope, and methodology.


   Results of Audit
           Alabama’s Grant Management Practices

           In most cases, ALDHS used SHSP funds according to the law and program
           guidance. However, it did not meet fund obligation requirements and did not
           follow an established internal control for approving expenditures. ALDHS also did
           not have a current state homeland security strategy or a method to measure
           preparedness. In most cases, subgrantees complied with procurement
           requirements, but they did not always comply with property inventory and
           record requirements.

           Obligation of Grant Funds

           ALDHS did not obligate 80 percent of SHSP funds to local units of government as
           required. In FY 2010, it allocated 54 percent of funds to local units of
           government; in FY 2011, 14 percent; and in FY 2012, ALDHS allocated 21 percent.
           ALDHS allocated the majority of SHSP funds to support statewide initiatives, such
           as information sharing and interoperable communications. From FY 2010 to FY
           2012, FEMA reduced the award from $9.8 million to $2.8 million. ALDHS then
           decided to fund statewide initiatives to benefit all local jurisdictions rather than
           allocate smaller amounts to individual jurisdictions. ALDHS’ plan to invest in
           statewide initiatives may have been more beneficial and a good use of limited
           grant funds, but ALDHS did not obtain consent from local units of government
           before allocating the funds.

           Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActf
           off2007 and FEMA’s HSGP guidance require that state administrative agencies
           obligate and make available to local government units at least 80 percent of
           SHSP funds. According to HSGP guidance, states may retain more than 20
           percent of SHSP funding for expenditure by the state on behalf of a local unit of
           government with the unit’s written consent, which specifies the amount and
           intended use of funds.

           From FYs 2010 through 2012, ALDHS created memorandums of understanding
           (MOU) with a sheriff’s department for about $8.2 million. The MOUs authorized


www.oig.dhs.gov                                 3                                         OIG-14-87

                           OFFICE OF INSPECTOR GENERAL 

                                   Department of Homeland Security 



           state agencies, such as ALDHS, to make purchases on behalf of the sheriff’s
           department. The MOUs also specified the amount and intended use of funds,
           which included statewide initiatives, such as information sharing and
           interoperable communications.

           According to ALDHS, the MOUs met the requirement to obligate 80 percent of
           funds to local units of government. The sheriff’s department was a local unit of
           government providing written consent to allocate funds for state priorities.
           ALDHS officials also said that during the annual Homeland Security Task Force
           meeting, its stakeholders, including the other jurisdictions, consented to the
           allocations by voting. However, task force meeting minutes from FYs 2011 and
           2012 indicated that local jurisdictions were not adequately represented and did
           not always consent to the allocations.

           45-day Pass-through Requirement

           When ALDHS allocated funds to local units of government, it did not always
           obligate funds within 45 days of FEMA’s award date. According to HGSP
           guidance, state administrative agencies must obligate and make SHSP funds
           available to local government units within 45 days of FEMA’s award date. The
           obligation includes the following requirements:

                  •	 There must be some action to establish a firm commitment on the part of
                     the awarding entity;

                  •	 The action must be unconditional on the part of the awarding entity (i.e.,
                     no contingencies for availability of funds and all special conditions
                     prohibiting obligation, expenditure, and draw down must be removed);

                  •	 There must be documentary evidence of the commitment; and

                  •	 The award terms must be communicated to the official grantee.

           ALDHS considered the date it issued grant agreements to subgrantees the
           obligation date. However, because subgrantees had to follow an ALDHS process
           before expending funds, issuing grant agreements did not constitute obligation.
           Subgrantees had to provide a signed grant agreement, approved budget, and
           stakeholder signatures (showing approval) to ALDHS before obligating funds,
           making commitments, or purchasing items. According to ALDHS, the process
           ensures that subgrantees do not purchase nonreimbursable items, which
           subgrantees had done in the past. Upon approving the documents, ALDHS
           notified the subgrantees that they could spend the funds. Although ALDHS’


www.oig.dhs.gov                                   4	                                      OIG-14-87

                           OFFICE OF INSPECTOR GENERAL 

                                   Department of Homeland Security 



           intent was to protect subgrantees, obligation of funds was delayed an average of
           2 to 6 months.

           In addition, ALDHS did not always follow its own approval process. For example,
           in FY 2010, five subgrantees did not submit the required documents or receive
           approval to spend funds. They incurred, however, about $511,000 in SHSP
           expenses in the grant period. Because the subgrantees developed a budget after
           they incurred expenses and purchased items that were on FEMA’s Authorized
           Equipment List, ALDHS reimbursed them even though they had not received
           consent to spend.

           State Homeland Security Strategy

           ALDHS did not have a current, FEMA-approved homeland security strategy, but
           its outdated strategy had measurable goals, objectives, and implementation
           steps. ALDHS provided an FY 2010 strategy to FEMA, but the component did not
           approve it because it had no record of its submission to the Grant Reporting
           Tool. According to FEMA, Alabama’s 2006 strategy was the last one it approved.

           Although outdated, in most cases, the 2006 strategy met the requirements for
           developing strategy goals and objectives. In July 2005, FEMA released guidance
           to states on aligning their homeland security strategies with the National
           Preparedness Goal. The DepartmentfoffHomelandfSecurityfStatefandfUrbanfAreaf
           HomelandfSecurityfStrategyfGuidancefonfAligningfStrategiesfwithfthefNationalf
           PreparednessfGoal requires that states include measurable goals and objectives,
           as well as implementation steps, in their strategies. According to the guidance,
           an objective should be:

                  •	 Specific, detailed, particular, and focused – help identify what is to be
                     accomplished;

                  •	 Measurable – be quantifiable, provide a standard for comparison, and
                     identify a specific achievable result;

                  •	 Achievable –not beyond the ability of a state, region, jurisdiction, or
                     locality;

                  •	 Results-oriented – identify a specific outcome; and

                  •	 Time-limited – have a target date to identify when the objective will be
                     achieved.



www.oig.dhs.gov                                    5	                                          OIG-14-87

                           OFFICE OF INSPECTOR GENERAL 

                                   Department of Homeland Security 



           The 2006 strategy included 4 goals and 20 objectives. Fourteen of the 20
           objectives did not meet all the FEMA requirements, but the objectives did
           include 67 implementation steps. Of the 67 implementation steps, 56 (84
           percent) met all the requirements. The objectives and steps that did not meet all
           the requirements were not time-limited. Without a timeline, ALDHS cannot
           identify when its goals will be achieved. Although the implementation steps
           were measurable, ALDHS did not have a process to measure how much SHSP
           awards enhanced the State’s ability to prevent, prepare for, protect against, and
           respond to natural disasters, acts of terrorism, and other manmade disasters.

           In April 2012, FEMA required that, by December 31, 2012, state and local
           governments receiving preparedness grants complete a Threat and Hazard
           Identification and Risk Assessment (THIRA). The THIRA provides a comprehensive
           approach to identify and assess risks and associated impacts, using the core
           capabilities identified in the National Preparedness Goal. FEMA also requires
           states and territories that receive FEMA preparedness grants to submit a state
           preparedness report (SPR) annually. According to FEMA officials, THIRA results
           and the SPR will provide a quantitative summary of preparedness. We did not
           review the THIRA process because it was not within the scope of our audit. See
           appendix E for more information about the THIRA.

           Inventory Requirements

           ALDHS subgrantees did not always comply with the Code of Federal Regulations
           (CFR) grant inventory and property record requirements. Title 44 CFR § 13.32(d),
           Equipment,fManagementfrequirements,festablishes procedures for managing
           equipment acquired in whole or part with grant funds. It includes the following
           requirements:

                  •	 Property records must be maintained and include the property’s
                     description, identification number, source of the property, title holder,
                     acquisition date, cost and percentage of Federal funds used in the cost,
                     location, use and condition, and ultimate disposition.

                  •	 A physical inventory of the property must be taken and the results
                     reconciled with the property records at least every 2 years.

                  •	 A control system must be developed to ensure that adequate safeguards
                     are in place to prevent loss, damage, or theft of the property. Any loss,
                     damage, or theft shall be investigated.




www.oig.dhs.gov                                    6	                                      OIG-14-87

                           OFFICE OF INSPECTOR GENERAL 

                                   Department of Homeland Security 



           We visited seven subgrantees and reviewed their inventory practices to
           determine whether they met these requirements. According to our analysis:

                  •	 Two of the subgrantees did not maintain an inventory list or other type of
                     control system. Of the remaining five subgrantees, four maintained an
                     inventory but did not include all of the required elements; and

                  •	 Three subgrantees did not conduct a physical inventory every 2 years.

           Unless Alabama adheres to inventory management requirements, it cannot
           ensure that assets procured with grant funds are adequately accounted for and
           safeguarded to prevent loss, damage, or theft, and are used as intended.

           Procurement Practices

           In most cases, subgrantees complied with procurement requirements for goods
           and services purchased with HSGP funds. According to the grant agreements,
           subgrantees had to comply with competitive bidding procedures in the Code of
           Alabama. The code requires that state agencies competitively bid transactions
           more than $7,500 and local jurisdictions competitively bid transactions more
           than $15,000. Of the 58 transactions we reviewed that met the competitive bid
           threshold, 7 (12 percent) did not comply with this requirement. ALDHS did not
           oversee subgrantee procurement practices to ensure that these transactions
           were bid competitively.

           Recommendations

           We recommend that the Federal Emergency Management Agency Assistant
           Administrator, Grant Programs Directorate:

           Recommendation #1:

           Require ALDHS to obligate 80 percent of SHSP funds to local units of government
           or obtain written consent from local units of government before funding
           statewide initiatives.




www.oig.dhs.gov                                   7	                                      OIG-14-87

                        OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security 



           Recommendation #2:

           Require ALDHS to assess and streamline the current processes and procedures
           for obligating funds to subgrantees so that funds are obligated within 45 days.

           Recommendation #3:

           Require ALDHS to deny reimbursement claims for subgrantees that do not follow
           ALDHS’ approval process as required by the grant agreements.

           Recommendation #4:

           Require ALDHS to submit a current homeland security strategy that includes
           objectives that are specific, measurable, achievable, results-oriented, and
           time-limited.

           Recommendation #5:

           Require ALDHS to ensure that subgrantees maintain property records and
           perform a physical inventory as required by 44 CFR § 13.32(d).

           Recommendation #6:

           Require ALDHS to provide oversight of subgrantees’ procurement practices to
           ensure competitive bidding for transactions over the established thresholds.

           Management Comments and OIG Analysis

           We obtained written comments on the draft report from FEMA’s Associate
           Administrator for Policy, Program Analysis and International Affairs and from the
           Alabama Law Enforcement Agency on behalf of the State. We reviewed the
           comments and, where appropriate, made changes to the report. FEMA
           concurred with all six recommendations. We included a copy of FEMA’s
           management comments in their entirety in appendix B and a copy of the State’s
           management comments in appendix C. The following is an evaluation of FEMA’s
           and the State’s official responses.

           FEMA’s and the State’s responses to recommendation #1 – FEMA concurred with
           the recommendation. It will require ALDHS to execute Memorandums of
           Agreement with local jurisdictions for all statewide initiatives. This will
           demonstrate that 80 percent of SHSP funds were obligated to local units of
           government. According to Alabama, it uses the Alabama Homeland Security Task



www.oig.dhs.gov                                8                                         OIG-14-87

                        OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security 



           Force to secure written consent of local units of government. The task force is
           composed of local representatives from county governments, municipal
           governments, law enforcement agencies, fire departments, local management
           agencies, and local emergency communications districts.

           OIG analysis – We consider FEMA’s actions responsive to the intent of this
           recommendation. However, this recommendation will remain unresolved
           pending receipt of a target completion date for the corrective actions.

           FEMA’s and the State’s responses to recommendation #2 – FEMA concurred with
           the recommendation and will require ALDHS to assess whether it can identify
           additional efficiencies. The State will explore streamlining its current process to
           obligate funds within 45 days.

           OIG analysis – We consider FEMA’s actions responsive to the intent of this
           recommendation. However, this recommendation will remain unresolved
           pending receipt of a target completion date for the corrective actions.

           FEMA’s and the State’s responses to recommendation #3 – FEMA concurred with
           the recommendation and will require ALDHS to alter future sub-agreements to
           ensure all expenditures follow the ALDHS approval process; failure to do so will
           result in denial of the reimbursement claim. Alabama concurred with this
           recommendation.

           OIG analysis – We consider FEMA’s actions responsive to the intent of this
           recommendation. However, this recommendation will remain unresolved
           pending receipt of a target completion date for the corrective actions.

           FEMA’s and the State’s responses to recommendation #4 – FEMA concurred with
           the recommendation. FEMA has established and implemented a system to help
           states, territories, and urban areas establish goals and objectives to measure
           improvements in first responder capabilities and statewide preparedness.

           FEMA has made substantial progress in measuring grant effectiveness. It uses
           the National Preparedness Goal (the goal) and the National Preparedness System
           to assess grant effectiveness. FEMA's strategy for developing metrics and
           assessing grant performance begins with the goal. The goal defines the core
           capabilities necessary to prepare for threats and hazards that pose the greatest
           risk to the Nation’s security. It also includes concrete, measurable objectives to
           manage those risks. For each core capability, the targets are concrete statements
           of the Nation's requirements.



www.oig.dhs.gov                                 9                                        OIG-14-87

                        OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security 



           As part of the National Preparedness System, FEMA has performance
           assessments that measure progress toward achieving the goal. Assessments are
           based on understanding and using risks to determine required capabilities,
           assessing current capabilities against requirements, and tracking progress in
           closing identified capability gaps.

           In 2012, FEMA released the ComprehensivefPreparednessfGuidef201:fThreatfandf
           HazardfIdentificationfandfRiskfAssessmentf(THIRA)fGuide. Jurisdictions can use
           the guide’s five-step process to achieve desired outcomes and capability targets
           for each core capability. Thus, a jurisdiction can establish its own capability
           targets based on its risks.

           On December 31, 2012, states, territories, and major urban areas receiving HSGP
           funds had to submit their THIRA to FEMA. Once each jurisdiction determines
           capability targets through the THIRA, it estimates its current capabilities against
           those targets. Also in 2012, states and territories were required to submit SPRs
           to FEMA. Sub-jurisdictions, subgrantees, and subject matter experts provide
           input through the THIRA and SPRs. The results identify capability needs and gaps,
           as well as grantees’ progress in closing those gaps. FEMA reports the results of
           the capability assessments annually in the National Preparedness Report.

           The National Preparedness System also builds and sustains capabilities by tying
           grant investments directly to needs and shortfalls. Grantees address capability
           requirements and gaps in grant applications, which also include investment
           justifications. In investment justifications, grantees must identify core
           capabilities and priorities, as well as the capability gaps noted in SPRs. The
           grantee must also identify the specific outcome(s) of the investment. Through its
           Biannual Strategy Implementation Report, FEMA verifies completion of the
           project. The performance period for the HSGP is 2 years, so FEMA sets a time
           limit for project completion, once it is funded.

           FEMA addressed our recommendation for states to establish goals and
           objectives that are specific, measurable, achievable, results -oriented, and time-
           limited. States and territories can measure improvements in first responder
           capabilities and statewide preparedness through the THIRA, SPRs, and
           investment justifications. FEMA encourages, but does not require, strategy
           updates because the THIRA, SPRs, and investment justifications include goals and
           assessment of progress. FEMA has provided all required templates to complete
           the THIRA. Subsequent iterations of the THIRA will build on documents from
           previous years.




www.oig.dhs.gov                                10                                        OIG-14-87

                        OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security 



           FEMA reported that Alabama had submitted its FY 2012 THIRA and its SPR as
           well as its investment justifications.

           According to FEMA, using the THIRA, SPRs, and investment justifications satisfies
           the intent of recommendation #4; FEMA requested this recommendation be
           closed.

           Alabama concurred with this recommendation.

           OIG analysis – We consider FEMA’s actions responsive and consider the
           recommendation resolved and closed.

           FEMA’s and the State’s responses to recommendation #5 – FEMA concurred with
           the recommendation. It will require ALDHS to adopt a policy to certify property
           records during subgrantee monitoring. The policy will also require subgrantees
           to perform physical inventories. According to Alabama, ensuring that
           subgrantees maintain property records and perform physical inventory is part of
           its grant monitoring. The State will explore efforts to strengthen monitoring.

           OIG analysis – We consider FEMA’s actions responsive to the intent of this
           recommendation. However, this recommendation will remain unresolved
           pending receipt of a target completion date for the corrective actions.

           FEMA’s and the State’s responses to recommendation #6 – FEMA concurred with
           the recommendation. It will require ALDHS to include a provision in sub-
           agreements that it will deny reimbursement to subgrantees that do not follow its
           procurement processes. According to Alabama, oversight of subgrantee
           procurement practices is part of grant monitoring. The State will explore efforts
           to strengthen its monitoring.

           OIG analysis – We consider FEMA’s actions responsive to the intent of this
           recommendation. However, this recommendation will remain unresolved
           pending receipt of a target completion date for the corrective actions.




www.oig.dhs.gov                               11                                        OIG-14-87

                        OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security 



   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department. The report objectives were to
   determine whether the State used SHSP and Urban Areas Security Initiative funds in
   accordance with the law, program guidance, and state homeland security strategies and
   other applicable plans. We also addressed the extent to which funds enhanced the
   State’s ability to prevent, prepare for, protect against, and respond to natural disasters,
   acts of terrorism, and other manmade disasters.

   To answer our objectives, we reviewed FYs 2010 through 2012 documentation
   supporting management of grant funds, reviewed procurement and inventory
   documentation, inspected selected equipment purchased with grant funds, and
   interviewed state and local officials directly involved with Alabama’s management of
   SHSP. We also visited the designated administrative agency (ALDHS) and nine
   subgrantees that received SHSP funds.

   State Agencies
       • Alabama Criminal Justice Information Center
       • Alabama Fire College

   Counties
      • Butler
      • Jefferson
      • Lawrence
      • Macon
      • Madison
      • Mobile
      • Washington

   We conducted this performance audit between November 2012 and June 2013
   pursuant to the InspectorfGeneralfActfoff1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.


www.oig.dhs.gov                                12                                        OIG-14-87

                            OFFICE OF INSPECTOR GENERAL 

                                       Department of Homeland Security 



   Appendix B
   Management Comments to the Draft Report

                                                                                       .S. Dt panmt nt of llomtlond Stturlt}
                                                                                     \Va_~hingloiL   DC 2G.a72




                                              NOV 2 1 2013

             MEMORANDUM FOR:               Anne L. Richards
                                           Assi tant Inspector General lbr Audits
                                           Office of lnspec10r General (OIG)
                                           Department of Homeland Security

             fROM:                   \.~   11avid J. Kaufman         ~   '0
                                           Associate Administrator for
                                           Policy. Program Analysis and International Affairs
                                           Federal Emergency Management Agency (FEMA)

             SUBJECT:                      FEMA ·s Response to OIG- 13-1 19-AUD-FEMA DRAfT
                                           RF.PORT "Alabama's Management of State Homeland Security
                                           Program Grants Awarded During Fiscal Years 20 10 Through
                                           20 12""


             Thank you for the opportunity to review and comment on OIG Draft Report 010- 13- 119-AUD-
             FEMA DRAFT REPORT ·'Alabama's Management of Statc Homeland Security Program Grants
             Awarded During Fiscal Ycars 20 I0 Through 20 IT.

             The draft report contains six (6) recommendations, of which FEMA concurs with all
             recommendations. I through 6. This memorandum serves as FEMA's official written response
             to your drnft report.

             OIG Recommenda tion I: We recommend that the Federal Emergency Management Agency
             Assistant Administrnror, Grnnt Programs Directorate require Alabama Department of Homeland
             Security {A LOllS) to obligate 80 percent of State Homeland Security Program (SHSP) funds to
             local units of government or obtain \-.Titten consent from its local units of government before
             fundi ng statewide initiatives.

              FE.MA Response to Recommendation I : Concur. The FEMA Assistant Administrator, Grant
             Programs Directorate will require that ALDHS execute Memorandums of Agreement with local
             jurisdictions for all statewide initiatives sufficient to demonstrate that 80 percent ofSHSP funds
             were ultimately obligated to local units of government.

             OIG Recommenda tion 2: We recommend that the Federal Emergency Management Agency
             Assistant Administrator, Grant Programs Directorate require 1\LDHS to assess and streamline
             the current processes and procedures for obligating funds to subgrantees so that funds are
             obligated within 45 days.
                                                                                     ww\~o . fcmo..gov




www.oig.dhs.gov                                             13                                                                 OIG-14-87

                             OFFICE OF INSPECTOR GENERAL 

                                        Department of Homeland Security 





            FEMA Response to Recommendation 2: Concur. ALHDS issues the grant awards within 45
            days. The subgrantee acceptance of the award and final budget submission (versus the proposed
            budget) does not breach the obligation requirements. However, the FEMA Assistant
            Administrator, Grant Programs Directorate will require that the ALDHS assess whether
            additional efficiencies can be identified.

            OIG Recommendation 3: We recommend that the Federal Emergency Management Agency
            Assistant Administrator, Grant Programs Directorate require ALDHS to deny reimbursement
            claims for subgrantees that do not follow ALDHS' approval process required by the grant
            agreements.

            FEMA Response to Recommendation 3: Concur. The FEMA Assistant Administrator, Grant
            Programs Directorate will not require ALDHS to deny reimbursement claims however, will
            require that ALDHS have sub-grantees provide evidence that the items in question are on the
            Authorized Equipment List and were allocable, allowable and reasonable. The FEMA Assistant
            Administrator, Grant Programs Directorate will also require that ALDHS alter future sub-
            agreements to ensure all expenditures follow the ALDHS approval process and failure to do so
            will result in denial of the reimbursement claim.

            OIG Recommendation 4: We recommend that the Federal Emergency Management Agency
            Assistant Administrator, Grant Programs Directorate require ALDHS to submit a current State
            Homeland Security Strategy that includes objectives that are specific, measurable, achievable,
            results oriented, and time limited.

            FEMA Response to Recommendation 4: Concur. FEMA has established and implemented a
            system that help states, territories, and urban areas establish measurable goals and objectives that
            will enable them to systematically measure improvements in first responder capabilities and
            statewide preparedness.

            FEMA has made substantial progress in measuring grant effectiveness. Among other changes,
            the National Preparedness Goal (the Goal) and the National Preparedness System now serve as
            the framework for assessing grant effectiveness. FEMA's strategy for developing metrics and
            assessing grant performance begins with the Goal. The Goal defines the core capabilities
            necessary to prepare for the threats and hazards that pose the greatest risk to the security of the
            Nation, and includes concrete, measurable objectives to manage those risks. The Goal's
            capability targets provide concrete statements of the Nation's requirements in each core
            capability.

            Measuring Grant Effectiveness
            As part of the National Preparedness System, FEMA has developed and is implementing
            performance assessments that measure progress toward achieving the Goal. FEMA's strategy is
            to base assessments on the principles that the Nation needs to understand existing risks, use those
            risks to determine required capabilities, assess current capability levels against those
            requirements, and track its progress in closing identified capability gaps.



                                                              2




www.oig.dhs.gov                                              14                                                    OIG-14-87

                             OFFICE OF INSPECTOR GENERAL 

                                        Department of Homeland Security 





            In 2012, FEMA released a consistent methodology for determining risks in the Comprehensive
            Preparedness Guide 201: Threat and Hazard Identification and Risk Assessment (l'H/RA) Guide
            (CPG-201). CPG-201 details a five-step process jurisdictions can use to achieve desired
            outcomes and capability targets for each of the core capabilities. This approach allows a
            jurisdiction to establish its own capability targets based on the risks it faces.

            On December 31 , 2012, states, territories, and major urban areas receiving Homeland Security
            Grant Program (HSGP) funds were required to submit their THlRA to FEMA. Once each
            jurisdiction has determined capability targets through the THIRA process, it estimates its current
            capability levels against those targets. Also in 2012, states and territories were required to
            submit State Preparedness Reports (SPRs) to FEMA. The THIRA and SPR processes are
            scalable to allow sub-jurisdictions, sub-grantees and subject matter experts to provide input to
            the state or territory. Taken together, the THIRA results and the SPR identify capability needs
            and gaps. The THIRA and SPR results highlight gaps in capability and the progress of grantees
            in closing those gaps over time. FEMA reports the results of the capability assessments annually
            in the National Preparedness Report (NPR).

            Sustaining, Building and Delivering Capabilities
            Having estimated capability requirements, the next component of the National Preparedness
            System is to build and sustain capabilities. This step ties grant investments directly to needs and
            shortfalls. Grantees address documented capability requirements and gaps in their grant
            applications. In the Investment Justifications (IJ) submitted in the grant application, grantees
            must specifically identify the core capability or capabilities, the priority of the core capability as
            well as the capability gaps noted in their SPR that investment intends to address. In addition, the
            grantee must identify the specific outcome(s) that the investment will yield. FEMA verifies
            completion of the investment/project through its programmatic monitoring and spending on the
            investment through the Biannual Strategy Implementation Report (BSIR), also a tool used in the
            monitoring process. Since the period of performance for the Homeland Security Grant Program
            is two years, a time limit is set for completion of the project once it is funded.

            FEMA addressed the OIG recommendation for States to establish SMART goals and objectives
            that will enable States and Territories to systematically measure improvements in first responder
            capabilities and statewide preparedness by requiring states to use a set of tools including the
            THIRA, SPR, and IJ. Strategy updates are encouraged but not required as the THIRA, SPR and
            IJ methodology provide the goals and assessment of progress against those goals.

            Finally, CPG 201: Threat and Hazard Identification and Risk Assessment Guide Supplement 1:
            Toolkit provides all the required templates to complete the THIRA process including information
            and docwnentation used to develop and compile threat and hazard information. As the THIRA
            will be an annual iterative process, subsequent iterations will build on the docwnents from
            previous years.




                                                              3




www.oig.dhs.gov                                              15                                                      OIG-14-87

                            OFFICE OF INSPECTOR GENERAL 

                                       Department of Homeland Security 





           Alabama has submitted their FY 2012 THIRA (Attachment 1) and SPR (Attachment 2).ln
           accordance with the FY 2013 Homeland Security Grant Program Funding Opportunity
           Announcement, Alabama has submitted IJs based on their THIRA and SPR.

           FEMA addressed the recommendation for assessment and reporting systems by requiring States
           and Territories to use the THIRA, SPR, and IJs as the basis for statewide assessment and
           reporting. The methodology and tools for THIRA and SPR are scalable and available to local
           jurisdictions and sub-grantees.

           FEMA believes that use of the THIRA, SPR and IJ satisfies the intent of recommendation 4 and
           requests this recommendation be closed.

           OIG RecommendationS: We recommend that the Federal Emergency Management Agency
           Assistant Administrator, Grant Programs Directorate require ALDHS to ensure that subgrantees
           maintain property records and perform a physical inventory as required by 44 CFR §13.32(d).

            FEMA Response to Recommendation S: Concur. The FEMA Assistant Administrator, Grant
            Programs Directorate will require ALDHS to adopt a written policy to certify property records
            during the ALDHS subgrantee monitoring process and to include a requirement in future sub-
            agreements that subgrantees will perform physical inventories as required by 44 CFR § 13 .32(d).

            OIG Recommendation 6: We recommend that the Federal Emergency Management Agency
            Assistant Administrator, Grant Programs Directorate require ALDHS to provide oversight of
            sub-grantees' procurement practices to ensure competitive bidding for transaction over the
            established thresholds.

            FEMA Recommendation 6: Concur. The FEMA Assistant Administrator, Grant Programs
            Directorate will require that ALDHS to alter their sub-agreements to include a provision
            requiring ALDHS to deny any reimbursement claims from subgrantees that do not follow
            ALDHS' procurement processes.

            Thank you again, for the opportunity to review and comment on OIG Draft Report OIG-13-119-
            AUD-FEMA DRAFT REPORT "Alabama's Management of State Homeland Security Program
            Grants A warded During Fiscal Years 201 0 Through 20 12" and for the work that you and your
            team have done to better inform us throughout this audit so that we may enhance the program's
            overall effectiveness. We look forward to your final report for this audit. Please direct any
            questions regarding this response to Gary McKeon, FEMA's Chief Audit Liaison. His contact
            number is 202-646-1308.

            See Attachments:
               1. Alabama THIRA
               2. Alabama SPR




                                                           4




www.oig.dhs.gov                                            16                                                  OIG-14-87

                             OFFICE OF INSPECTOR GENERAL 

                                        Department of Homeland Security 



   Appendix C
   ALDHS Comments to the Draft Report

                                                  State of Alabama
                               Law Enforcement Agency
            Robert Bendey                                                                                Spencer Collier
              Governor                                                                                     SeCretary


              March 7, 2014


              MEMORANDUM

              FOR:                    Sean Pettersen, Audit Manager
                                      Office of Inspector General, US Department of Homeland Security

              FROM:                   Shirrell Roberts ASK
                                      Deputy Director for Homeland Security, Alabama Law Enforcement
                                      Agency

              SUBJECT:                Response to Draft Report: Alabama's Management ofState Homeland
                                      Security Program Grants A warded During Fiscal Years 2010 Through
                                      2012-For Qlficial Use Only
                                      OTG Project No. 13-119-AUD-FEMA


              I have reviewed the draft report and make the following comments as the State Aclministrati ve
              Agency (SAA):

                      R ecommendation #1:

                      Our current method to secure the written consent of the local units of government is
                      through the Alabama Homeland Security Task Force (Attachment, pp. 14-1 6). This task
                      force is composed of local representatives fi·om county governments, mwticipal
                      govenunents, county law enforcement agencies (Sheriffs), municipal law enforcement
                      (Police Chiefs), paid fire departments (Fire Chiefs), volunteer fire departments, local
                      emergency management agencies, local emergency communications districts (911 ).
                      T hese individual are given notice to attend the meeting. If they do not attend or send a
                      representative, we cannot compel them to attend.

                       1 do not know of a better way to obtain consent with 67 counties, 1 federally recogttized
                       tribe, and 462 municipalities. I hope OIG is not advocating getting individual consent
                       from all 530 local units of govenunent.

                      Recommendation #2:

                      The SAA will explore possible courses of actions to streamline the current process to
                      obligate tl.mds within 45 days.




                              PO BOX 304115 + MONTGOMERY, ALABAMA, 36130 • Phone(334) 517-3050 •




www.oig.dhs.gov                                              17                                                            OIG-14-87

                           OFFICE OF INSPECTOR GENERAL 

                                      Department of Homeland Security 





                  Recommendation #3

                  Concur

                  Recommendation #4

                  Concur

                  Recommendation #5

                  The requirement for the SAA to ensure that subgrantees maintain property records an.d
                  perform a physical inventory is currently a part of the grant monitoring program. Possible
                  efforts to strengthen the monitoring program will be explored.

                  Recommendation #6

                  The requirement for the SAA to provide oversight of sub grantees' procurement practices
                  are currently a pa1t of the grant monitoring program. Possible efforts to strengthen the
                  monitoring program will be explored.




www.oig.dhs.gov                                           18                                                   OIG-14-87

                       OFFICE OF INSPECTOR GENERAL 

                               Department of Homeland Security 



   Appendix D
   Description of the Homeland Security Grant Program
   The HSGP provides Federal funding to help state and local agencies enhance capabilities
   to prevent, protect, mitigate, respond to, and recover from terrorist attacks, major
   disasters, and other emergencies. The HSGP encompasses several interrelated Federal
   grant programs that together fund a range of preparedness activities, including
   planning, organization, equipment purchase, training, and exercises, as well as
   management and administration costs. Programs include the following:

       •	 The State Homeland Security Program provides financial assistance directly to
          each of the states and territories to prevent, protect, mitigate, respond to, and
          recover from acts of terrorism and other catastrophic events. The program
          supports the implementation of the state homeland security strategy to address
          identified planning, equipment, training, and exercise needs.

       •	 The Urban Areas Security Initiative provides financial assistance to address the
          unique planning, equipment, training, and exercise needs of high-risk urban
          areas, and to assist in building an enhanced and sustainable capacity to prevent,
          protect, mitigate, respond to, and recover from threats or acts of terrorism and
          other disasters. Funding is expended based on urban area homeland security
          strategies.

   The HSGP also includes other interrelated grant programs with similar purposes.
   Depending on the fiscal year, these programs include the following:

       •	 Operation Stonegarden,
       •	 Metropolitan Medical Response System (through FY 2011), and
       •	 Citizen Corps Program (through FY 2011).




www.oig.dhs.gov                               19                                	      OIG-14-87

                       OFFICE OF INSPECTOR GENERAL 

                               Department of Homeland Security 



   Appendix E
   Threat and Hazard Identification and Risk Assessment
   The National Preparedness System establishes the process to define and achieve specific
   capability targets and meet the National Preparedness Goal. One of the six components
   of the National Preparedness System includes identifying and assessing risk. The THIRA
   provides a comprehensive approach for identifying and assessing risks and associated
   impacts, using the core capabilities identified in the National Preparedness Goal and
   employing the following five-step process:

       1.	 Identify threats and hazards;
       2.	 Give threats and hazards context (assess vulnerability, how they affect the
           community);
       3.	 Examine core capabilities using the threats and hazards (estimate consequences,
           impacts to the community);
       4.	 Set capability targets; and
       5.	 Apply the results (use results for planning and preparedness activities, identify
           means to deliver target level of capability).

   THIRA submission is required of all states and territories receiving HSGP and Emergency
   Management Performance Grant funds, and eligible urban areas. The first THIRA
   submission was due December 31, 2012. Subsequent submissions will be annual
   performance requirements for FEMA preparedness grant awards.

   In addition to the THIRA, states and territories receiving FEMA preparedness grants are
   required to submit an SPR annually. According to FEMA officials, THIRA results and the
   SPR will provide a quantitative summary of preparedness, document current capabilities
   and potential shortfalls, and set priorities for addressing shortfalls. Also, according to
   FEMA officials, states will use SPR results to identify funding requirements and set
   priorities for subgrantee project applications. The grant application (investment
   justification) must demonstrate how proposed projects address gaps and deficiencies in
   delivering one or more core capabilities outlined in the National Preparedness Goal and,
   according to FEMA officials, must address capability gaps reported in the SPR.

   FEMA officials said that the FY 2013 HSGP funding announcement will require applicants
   to map proposed investments to specific core capabilities and capability gaps identified
   in SPRs, linking investments to actions that build and sustain capabilities aligned with
   the National Preparedness Goal. We have not had the opportunity to audit this process
   or the outcomes for this State.




www.oig.dhs.gov                               20                                 	      OIG-14-87

                     OFFICE OF INSPECTOR GENERAL 

                             Department of Homeland Security 



   Appendix F
   Major Contributors to This Report
   Linda Howard, Director
   Sean Pettersen, Audit Manager
   Ignacio Yanes, Auditor-in-Charge
   Richard Joyce, Program Analyst
   Nick Jathar, Auditor
   David Kinard, Auditor
   Richard Kotecki, Auditor
   Kevin Dolloson, Communications Analyst
   Yeseira A. Diaz, Referencer




www.oig.dhs.gov                             21                   OIG-14-87

                        OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 



   Appendix G
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  22                        OIG-14-87

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
